                                         OFFICE OF INSPECTOR GENERAL
                                                                 MEMORANDUM




DATE:          November 25, 2003

TO:            Managing Director

FROM:          Inspector General

SUBJECT:       Report on Supervisor/Manager Telecommuting Survey


We have conducted a survey of the Commission’s Flexible Workplace Program. We
designed and conducted this survey to obtain supervisor and manager perspectives on
whether the program is meeting the Commission’s goals of increasing productivity,
reducing absenteeism, improving employee morale and job satisfaction, and reducing
supervisor/ manager oversight or monitoring in accomplishing their respective mission
objectives.
We learned from the survey responses that Commission supervisors and managers
support the Flexible Workplace Program, primarily because their telecommuting
employee’s exhibit improved morale and job satisfaction and tend to use a little less leave
than their non-telecommuting counterparts. However, they are neutral about how their
employees’ participation in the program achieves the FCC’s goals of increasing
employee productivity and reducing supervisor/manager oversight or monitoring in
accomplishing their respective mission objectives.
We found that from the responses to questions regarding the complications and
impairments to accomplishing mission objectives and recommendations for
improvement, supervisors and managers have concerns in these areas. However, we
believe that Commission’s Flexible Workplace Program policies have already given them
the tools and authority needed to address most of their concerns.
As a result, we recommend that the Commission provide training to supervisors and
managers to ensure that they are aware of the Flexible Workplace Program’s policies and
procedures and their authority and responsibilities for supervising their employees
participating in the program.
Should you or your staff have any questions, please contact Thomas Cline, Assistant
Inspector General for Audit, or me at (202) 418-0470.


                                                   /original signed by/

                                                   H. Walker Feaster III

cc: Director of Human Resources
    Deputy Director of Human Resources
    Human Resource Policy Advisor

Attachment
FEDERAL COMMUNICATIONS
      COMMISSION

  OFFICE OF INSPECTOR GENERAL




        Report on Supervisor/Manager
           Telecommuting Survey


       Audit Report No. 03-AUD-09-17

            November 25, 2003
                    Report on Supervisor/Manager Telecommuting Survey




Table of Contents



                                                                         Page



EXECUTIVE SUMMARY                                                          2
BACKGROUND                                                                 3
OBJECTIVE, SCOPE, AND METHODOLOGY                                          3
SURVEY RESULTS                                                             5
    Increased Productivity                                                 6
    Reduced absenteeism                                                    6
    Reduced supervisor/manager oversight or monitoring                     7
    Other Telecommuter vs. Non-Telecommuter Responses                      8
    How the Flexible Workplace Program Benefits Employee Performance
      in Accomplishing Mission Objectives                                  8
    How the Flexible Workplace Program Complicates or Impairs Employee
      Performance in Accomplishing Mission Objectives                      9
    Supervisor/Manager Recommendations to Improve Program                  10
CONCLUSION                                                                 12
APPENDICES                                                                 14
    Article 46
    Supervisor/Manager Questionnaire
                                 EXECUTIVE SUMMARY
The Federal Communications Commission (FCC) established its Flexible Workplace Program on
June 8, 2000 as an alternative work arrangement for Commission employees to work away from
their primary workplace. Work locations specified in the FCC’s policy can be employees’
homes, satellite offices, or other Commission approved “flexiplace” work sites. This practice is
also known as telecommuting and/or telework.


The FCC established the Flexible Workplace Program to increase productivity, improve
employee morale and job satisfaction, reduce absenteeism at the Commission, and enhance the
Commission’s Bureau and Office efforts to accomplish their respective missions.


We designed and conducted this survey to obtain supervisor and manager perspectives on
whether the Commission’s Flexible Workplace Program is meeting the Commission’s goals of
increasing productivity, reducing absenteeism, improving employee morale and job satisfaction,
and reducing supervisor/ manager oversight or monitoring in accomplishing their respective
mission objectives.

We found that the Commission’s Flexible Workplace Program policy complies with Federal
requirements. We also discovered that the FCC’s employee participation rate of 21% and 25%
for fiscal years (FY) 2001 and 2002 far exceed Federal agency telecommuting averages of 4.2%
and 5% for those same years.


We learned from the survey responses that Commission supervisors and managers support the
Flexible Workplace Program, primarily because their telecommuting employees exhibit
improved morale and job satisfaction and tend to use a little less leave than their non-
telecommuting counterparts. However, they are neutral about how their employees’
participation in the program achieves the FCC’s goals of increasing employee productivity and
reducing supervisor/manager oversight or monitoring in accomplishing their respective mission
objectives.


We also found that from responses to the questions regarding complications and impairments to
accomplishing mission objectives and recommendations for improvement, supervisors and
managers have concerns in these areas. However, we believe that Commission policies have
already given them the tools and authority to address most of their concerns.


We recommend that the Commission provide training to supervisors and managers to ensure that
they are aware of the Flexible Workplace Program’s policies and procedures and their authority
and responsibilities for supervising their employees participating in the program.
                                       BACKGROUND
Over the past several years, Congress has increasingly sought to encourage widespread use of
telework in order to improve Government’s ability to recruit and retain a high-quality workforce
in a competitive job market, promote environmental quality and energy conservation, improve
employees’ work lives by allowing a better balance of work and family responsibilities, and
reduce work related stress.


Telecommuting became a required policy of Executive agencies with the passage of Section 359
of the FY 2001 Department of Transportation and Related Agencies Appropriations Act, Public
Law 106-346. Section 359 prescribes, “Each executive agency shall establish a policy under
which eligible employees of the agency may participate in telecommuting to the extent possible
without diminished employee performance.” The law also defines telecommuting as “any
arrangement in which an employee regularly performs officially assigned duties at home or other
work sites geographically convenient to the residence of the employee,” and an eligible
employee as “any satisfactorily performing employee of the agency whose job may typically be
performed at least one day per week at an alternative workplace.”


The Federal Communications Commission (FCC) established its Flexible Workplace Program on
June 8, 2000 as an alternative work arrangement for Commission employees to work away from
their primary workplace. Work locations specified in the FCC’s policy can be employees’
homes, satellite offices, or other Commission approved “flexiplace” work sites.


The FCC established the Flexible Workplace Program to increase productivity, improve
employee morale and job satisfaction, and reduce absenteeism at the Commission, which should
enhance Commission Bureaus and Offices ability in accomplishing their respective missions.


The FCC also recognized that its managers and supervisors play key roles in the success of the
Flexible Workplace Program by identifying positions and employees that are eligible for
telecommuting, setting performance expectations for telecommuters, parameters for
telecommuting arrangements, and monitoring their telecommuting employees’ productivity.


                      OBJECTIVE, SCOPE, AND METHODOLOGY
Survey objectives included obtaining an understanding of the Commission’s Flexible Workplace
Program, collecting information on how the program operates, identifying areas for
improvement, and obtaining assurance that the program complies with applicable laws and
regulations.
                                                 Survey Distribution by Bureau/Office



We randomly selected 50 supervisors
                                                                       8%
and managers from a Commission                                 26%          12%
wide list of 306 supervisors and
managers and asked them to respond                                      8%
to our survey. The chart on the right                        10%        6%
shows the distribution of surveyed                             2%      2%
                                                                  20% 6%
supervisors and managers by Bureau
and Office.
                                                     GCB       EB     IB       MB      OET
We conducted our survey to find out                 OGC OMD OSP WCB WTB
what percentage of Commission
employees participate in the Flexible
Workplace Program, how many are
regular or ad hoc telecommuters, how
many days a week employees
telecommute, and the reasons for supervisors denying employee telecommuting requests.

We designed our telecommuting questionnaire to obtain supervisor and manager perspectives on
whether the Commission’s Flexible Workplace Program meets the Commission’s goals of:

    •    Increasing productivity;

    •    Reducing absenteeism;

    •    Improving employee morale and job satisfaction; and

    •    Reducing supervisor/manager oversight or monitoring.

We also asked supervisors and managers to give us their perspectives on:

     •   Whether employees charged overtime or credit hours while telecommuting, had
         appropriate time to interact with co-workers, avoided being assigned their share of
         unexpected tasks, and/or were more difficult to evaluate;

     •   How the Commission’s Flexible Workplace Program benefits, complicates, or impairs
         employee performance in accomplishing their assigned mission objectives; and

     •   What recommendations they had on ways the Commission could improve the Flexible
         Workplace Program.

This project was conducted as a survey. A survey is the preliminary audit work done before an
audit and is not an audit conducted in accordance with Government Auditing Standards (i.e.,
GAO “Yellow Book” standards). The purpose of a survey is to gather general working
information on important aspects of an entity, activity, or program and determine the nature and
extent of any subsequent audit effort. The scope of this survey incorporated steps necessary to
obtain an understanding of the Commission’s program, collect information on how the program
operates, identify areas for improvement, and obtain assurance about management’s assertion
that the program is in conformity with applicable laws and regulations. This survey was not
conducted nor were the survey results analyzed to determine the statistical validity of the
responses. Our intent was to gauge the attitudes of management regarding the telecommuting
program by compiling responses to questions about the program.

                                             SURVEY RESULTS
We found that the Commission’s Flexible Workplace Program policy1 complies with Federal
requirements and the FCC’s employee participation rate exceeds Federal agency telecommuting
averages as reported by the Office of Personnel Management (OPM) for fiscal years (FY) 2001
and 2002. 2 OPM reported that 4.2% and 5% of the Federal workforce teleworked in FY 2001
and FY 2002, respectively. The same report gave the FCC’s participation rate at 21% and 25%
for those same years.
We randomly selected fifty (50) supervisors and managers to survey. These managers are
responsible for four hundred eighty-nine (489) Commission employees of which approximately
thirty-two (32%) telecommute. The selected supervisors and managers represent sixteen percent
(16%) of the total number of supervisors and managers working for the Commission. Forty-
eight (48%) of the employees under the supervision of those we surveyed telecommute on a
regular basis and fifty-two percent (52%) telecommute on an ad hoc basis.


Eighteen (18) of the surveyed respondents are listed as supervisors or managers but do not
manage or supervise employees, do not have employees who telecommute, or are Bureau or
Office chiefs who do not directly supervise Commission employees. Five (5) supervisors and
managers did not respond to our survey. We subtracted the above respondents and non-
responders from our survey results in order to more accurately present the perspectives of
supervisors and managers who have employees participating in the Commission’s Flexible
Workplace Program. We requested these respondents provide us their perspectives on the
benefits, shortcomings, and recommendations for improving the Commission’s Flexible
Workplace Program and included their responses in the survey results.


Four (4) out of the forty-five supervisors and manager respondents stated that they denied
employee applications to telecommute. Three of the four stated that they denied their
employees’ telecommuting applications because of the nature of their employee’s work. One
supervisor stated that their employee did not have access to the databases required to perform
their job function.

1
    Article 46, Telecommuting (Flexible Workplace) Program
2
    The Status of Telework in the Federal Government, OPM’s 2003 Telework Report to Congress.
On some of the questions we received more than a 100% response because many of the
surveyed supervisors and managers are responsible for several telecommuters and gave multiple
responses. We also received less than a 100% response on some of the other questions because
respondents did not provide a response.

Increased Productivity

To get supervisor and manager perspective on
whether they have noticed increased                Telecom m uter Productivity
productivity as a benefit of the Commission’s
Flexible Workplace Program, we asked
supervisors and managers if their
telecommuting employees were more, as, or           100%

less productive than their employees who             80%

don’t telecommute. Eighty-nine percent               60%

(89%) responded that their telecommuting             40%

employees are as productive as their non-            20%

commuting employees. Fifteen percent (15%)            0%
                                                           Mor e    As      Less
of the supervisors and managers responding to
this question indicated that their
telecommuting employees were more productive and seven percent (7%) indicated that their
telecommuting employees were less productive than their non telecommuting employees.

Based on the survey results, supervisors and managers are neutral about the impact of
telecommuting on employee productivity in accomplishing their assigned missions from the
Commission’s Flexible Workplace Program. However, this may represent a measure of
success, given that there were concerns that telecommuting would have an adverse impact on
productivity early on in the program.

Reduced absenteeism

Our survey addressed whether                    Telecom m uter Leave Usage
supervisors and managers felt that their
telecommuting employees used more, the
same amount, or less leave than their         70%

non-telecommuting counterparts. We            60%

asked this question in order to get their     50%

perspective on whether they were              40%

realizing one of the Commission’s             30%

Flexible Workplace Program projected          20%
                                              10%
                                               0%
                                                     Mor e     Same      Less
benefits that telecommuting employees should use less leave than non-telecommuting
employees.

Seventy percent (70%) of the surveyed respondents indicated that their telecommuting
employees’ used leave at the same level as their non-telecommuting employee. Nineteen
percent (19%) of the supervisors and managers responded that their telecommuting employees
used less leave than their non-telecommuting employees.

Based on the absenteeism survey questions, it appears that the Commission supervisors and
managers feel that they are realizing some benefit in accomplishing their mission because their
telecommuting employees have been using the same or less leave than their non-telecommuting
counterparts.

Reduced supervisor/manager oversight or monitoring

Our survey also requested the
                                                     Level of Supervisory
respondents’ input on whether their
                                                   Telecom m uter Oversight
telecommuting employees required the
same level, significantly more, or less
supervisory oversight or monitoring than        80%
their non-telecommuting employees.
                                                60%


Seventy percent (70%) of the surveyed           40%

respondents indicated that their                20%
telecommuting employees’ require the
                                                 0%
same level of supervision or monitoring               Mor e      As       Less
while fifteen percent (15%) indicated that
their telecommuting employees require
significantly more supervision or monitoring. Only seven percent (7%) responded that their
telecommuting employees required less supervision or monitoring than their non-telecommuting
employees.

Based on survey responses, Commission supervisors and managers feel that, overall, they have
to oversee or monitor their telecommuting employees as much or more than their non-
telecommuting employees.
Other Telecommuter vs. Non-Telecommuter Responses


             35%
             30%
             25%
             20%
             15%
             10%
               5%
               0%
                       No Time to Avoid Sharing More Difficult
                      Interact with Unexpected to Evaluate
                         Fellow       Tasks
                       Employees

We asked supervisors and managers about whether, overall, their telecommuting employees had
an appropriate amount of time to interact with co-workers, avoided being assigned their share of
unexpected tasks, and whether telecommuters were more difficult to evaluate. Based on the
following responses, it appears that supervisors and managers have concerns about their
telecommuting employees in these areas:

   •   Telecommuting Employees have Appropriate Time to Interact with Co-Workers: Thirty-
       three percent (33%) of the surveyed supervisors and managers responded that their
       telecommuting employees do not have appropriate time to interact with their co-workers.

   •   Telecommuting Employees Avoid Being Assigned Their Share of Unexpected Tasks:
       Twenty-two percent (22%) of the respondents indicated that their employees avoid being
       assigned their share of unexpected tasks while they are telecommuting. Written
       comments indicate this observation is not due to active avoidance by telecommuters,
       rather, it appears to derive from a reluctance to assign day-to-day or “brush fire” tasks to
       a telecommuter.

   •   Telecommuting Employees are More Difficult to Evaluate: Nineteen percent (19%) of
       the surveyed supervisors and managers indicated that their telecommuting employees are
       more difficult to evaluate.

How the Flexible Workplace Program Benefits Employee Performance in Accomplishing
Mission Objectives

We asked supervisors and managers to provide written comments on how the Commission’s
Flexible Workplace Program benefits employee performance in accomplishing their mission
objectives. Thirty-one percent (31%) of the forty-five responding supervisors and managers
made no comment about how the Program benefits employee performance in accomplishing
their mission objectives. The other responding supervisors and managers made several
observations that fell in the following broad categories:

     •   Thirty-three percent (33%) reported that their telecommuting employees work with
         fewer distractions;

     •   Twenty-seven percent (27%) felt that employee morale improved as a result of the
         Flexible Workplace Program;

     •   Twenty-two percent (22%) reported that their telecommuting employees were more
         productive while telecommuting;

     •   Sixteen percent (16%) cited their employees reduced commuting time and stress as a
         benefit of the Program;

     •   Eleven percent (11%) felt that increased employee flexibility from the Flexible
         Workplace Program benefited employee performance; and,

     •   Seven percent (7%) reported that their telecommuting employees use less leave which
         helps them in accomplishing their mission objectives.

How the Flexible Workplace Program Complicates or Impairs Employee Performance in
Accomplishing Mission Objectives

We asked supervisors and managers to provide written comments on how the Commission’s
Flexible Workplace Program complicates or impairs employee performance in accomplishing
their mission objectives. Thirty-six percent (36%) of the surveyed supervisors had no
suggestions or comments in this area and eighteen percent (18%) reported that the Flexible
Workplace Program did not impair employee performance in accomplishing their mission
objectives. The complications or impairments to employee performance cited by the remaining
surveyed supervisors and managers include their:

     •   Inability to or delay in contacting employees while they are telecommuting [twenty-
         two percent (22%)];

     •   Difficulty in scheduling staff or other meetings because of telecommuting employee
         schedules [thirteen percent (13%)];

     •   Difficulty in assigning rush or unexpected projects to their telecommuting employees
         [eleven percent (11%)];
     •   Difficulty in monitoring employees who are telecommuting [nine percent (9%)]; and,

     •   Employees’ inability to access databases and other information services while
         telecommuting [nine percent (9%)];

Other areas of concern cited by respondents included their reluctance to contact telecommuting
employees while they are at home (4%), difficulty in tracking accomplishments (2%), employee
reluctance to be flexible with their telecommuting schedules (7%), increased workload burden
on their non-telecommuting employees (7%), and getting reduced performance from their
telecommuting employees (4%).

Supervisor/Manager Recommendations to Improve Program

Finally, we asked the supervisors and managers to give their recommendations on how the
Commission could improve the Flexible Workplace Program. As depicted by the chart, Sixteen
percent (16%) of the respondents gave no suggestions or comments on how the FCC’s
telecommuting program could be improved. We grouped respondent recommendations for
improving the FCC’s Flexible Workplace Program into three broad categories: technological,
administrative, and management or supervisory. Many of the responding supervisors and
managers gave more than one recommendation for improving the program, so total
recommendations came to one hundred-five percent (105%) of the responding supervisors and
managers.

                        Recommendations for Improvement




                                                         No Comm ent or
                             Programm atic                 Suggestion

            Administrative



                                                              Technological
Technological Recommendations

The largest percentage of survey responses fell into the technological recommendation category.
 Forty-eight percent (48%) of the responding supervisor and managers’ recommendations for
improving the Commission’s telecommuting program involved their telecommuting employees
being provided or being required to have:

    •   Updated Commission technology and software [Eighteen percent (18%)];

    •   More access to FCC servers and databases [Thirteen percent (13%)];

    •   A second telephone line for telecommuting employees using dial-up services for internet
        access [Thirteen percent (13%)]; and,

    •   A Commission provided call forwarding service from the telecommuting employee’s
        office telephone to their telecommuting telephone [Four percent (4%)].

Administrative Recommendations


Thirty-three percent (33%) of the surveyed supervisor and manager responses were
administrative type recommendations for improving the Commission’s Flexible Workplace
Program. Of that, twenty-five percent (25%) made the following recommendations address
administrative, day-to-day concerns:


   •    More uniform telecommuting guidelines should be issued and enforced by the
        Commission [seven percent (7%)]. Recommendations in this area include having the
        Commission define the nature of work being performed in various Bureaus and Offices
        and identify the resources and tools needed to offer telecommuting opportunities to all
        interested employees. Another recommended establishing more uniform guidelines for
        telecommuting and cited the disparity between Bureaus and Offices in allowing their
        employees to change their telecommuting days. Some offices are very flexible while
        others allow little or no flexibility in employees changing their telecommuting days.

   •    Telecommuting application form should be revised [seven percent (7%)]. A supervisor
        noted that almost every employee’s telecommuting application submitted for their
        approval was filled out incorrectly and it took too long for the union to sign-off on the
        applications.

   •    Telecommuting employees should be required to submit summaries of their day’s
        activities and accomplishments to their supervisors after each telecommuting day [seven
        percent (7%)].
   •   Management should increase the number of FCC contacts available for answering
       questions on the telecommuting program [four percent (4%)].

   The remaining recommendations for improving the telecommuting in this area included
   instituting core office days (2%), requiring telecommuting employees to notify their
   supervisors when they begin and end their work day when they telecommute (2%), requiring
   annual update courses for telecommuters (2%), and making all telecommuting ad hoc (2%).


Managerial or Supervisory Recommendations


Eight percent (8%) of the supervisor and manager recommendations were Commission
management directed type recommendations that fell into four general areas: increase upper
management acceptance of the telecommuting program (2%), allow managers to telecommute
(2%), make denial of employees’ telecommuting applications non-grievance actions (2%), and
make the telecommuting program more flexible (2%).


                                         CONCLUSION


The survey responses indicate that Commission supervisors and managers support the Flexible
Workplace Program, primarily because their telecommuting employee’s exhibit improved
morale and job satisfaction and tend to use a little less leave than their non-telecommuting
counterparts. However, they are basically neutral about whether their employees’ participation
in the program achieves the FCC’s goals of increasing employee productivity and reducing
supervisor or manager oversight or monitoring in accomplishing their respective mission
objectives. However, this may represent a measure of success, given that there were concerns
that telecommuting would have an adverse impact on productivity early on in the program.


We found that supervisors and managers already have the tools and authority to address most of
their concerns about complications and impairments to accomplishing their mission objectives
and recommendations for improvement. For example, supervisors and managers can:


       •   Establish in-office core days that require all their employees to be at their official
           duty station (Article 46, Section 5, C);

       •   Require their employees to attend scheduled staff meetings, either in person or by
           teleconference (Article 46, Section 5, C and D);
       •   Assign rush or unexpected projects to telecommuting employees by calling, e-
           mailing, or, if its critical, requiring them to return to the office (Article 46, Section 5,
           C); and,

       •   Require their telecommuting employees to be available to them and their customers
           by telephone, e-mail, voice mail, or other communications media (Article 46, Section
           5, D).

We recommend that the Commission provide training to supervisors and managers to ensure that
they are aware of the Flexible Workplace Program’s policies and procedures and their authority
and responsibilities for supervising their employees participating in the program.
APPENDICES
                                  ARTICLE 46
TELECOMMUTING (FLEXIBLE WORKPLACE) PROGRAM
Section 1 - Definition of Telecommuting (Flexible Workplace) Program

The flexible workplace is a program that permits employees to work at home or at other
approved locations remote to the conventional office site. The terms "flexiplace" and
"telecommuting" are synonymous and include working at home or in satellite office sites
or other approved flexiplace work sites. The Flexible Workplace Program is not
intended to prevent an employee and his or her supervisor from agreeing that a
particular assignment or task may be performed away from the official work site.


Section 2 - Purpose of Telecommuting/Flexiplace Program

The Parties anticipate that this program will result in increased productivity,
improvements in employee morale, job satisfaction, and reduced absenteeism.


Section 3 - Telecommuting/Flexible Workplace Arrangements

Positions approved for flexiplace depend on the specific nature and content of the job
rather than just the job series and title.

A.    A flexible work place arrangement may be used when there is a recurring
      opportunity to perform work at an alternate site; e.g. for individual days or hours
      within a pay period, or for a special assignment or project.

      Examples of such work tasks may include: data analysis, reviewing grants/cases,
      writing decisions or reports; telephone intensive tasks, such as obtaining or
      collecting information, following up on participants in a study, or setting up a
      conference; and some computer oriented tasks such as programming, data
      entry, and word processing. Typically, such tasks require uninterrupted
      concentration and result in measurable work outputs or products.

B.    A flexible work place arrangement may be appropriate to accommodate an
      employee with a temporary illness or disability if the employee is capable of
      performing the job at home or at a telecommuting center.
Section 4 - Selection Process

A.    Participation in the Flexible Workplace Program is voluntary.

B.    Bargaining unit employees may request to participate in the flexible work place
      program by submitting a written request and flexible work place agreement
      (Exhibit No.1 ) to their immediate supervisor through NTEU. The NTEU Chapter
      President will initial and forward the documents to the employee's immediate
      supervisor. The union initials these documents only to show prior receipt of the
      application, not to approve or disapprove the application. NTEU will date stamp
      the application.

C.    An employee's request will be reviewed based on the nature and content of the
      job and the following criteria. If the employee, and his or her job, meet the
      criteria of this article, then the flexiplace arrangement will be approved:

      1.    The employee's current rating of record is at least Fully Successful or
            Pass on a Pass/Fail system.

                   2.     The employee is not on leave restriction.

                   3.     The employee is not on a performance improvement plan
                          (PIP).

      4.    The employee has not received any disciplinary or adverse action in the
            last 12 months that was based on leave or attendance abuse.

      5.    The employee is not serving a probationary period, is not in the first year
            of a trial period, or is not occupying a trainee position (supervisors may
            make an exception to this provision on a case-by-case basis).

      6.    The employee's fully successful performance of work does not require:

            a.     daily use of specialized equipment or technology that is available
                   only at the official duty station;

            b.     personal face-to-face contacts with co-workers, managers, and/or
                   customers;

            c.     use of work processes or methods which can be more efficiently
                   performed at the employee's official duty station.

      7.    The employee is not required to provide office coverage, answer phones,
            receive visitors, sort mail, or provide on-site computer support.
      8.     The approval of the telecommuting request will not result in insufficient
             qualified staff to provide adequate office coverage. (See Section E for tie-
             breaker.)

D.    Normally, the request will be acted upon within ten calendar days. If the request
      is disapproved, the employee will be notified in writing, stating the reasons for the
      disapproval. An employee whose request is disapproved may request that the
      next higher level official reconsider the disapproval of the request prior to filing a
      grievance.

E.    Where more than one employee in the same work unit submits a request and the
      approval of all requests would result in insufficient qualified staff to provide
      adequate office coverage or there is insufficient FCC-owned equipment to allow
      all qualified employees to participate, the supervisor will discuss the matter with
      the affected employees and attempt to reach a mutually agreeable resolution.
      The supervisor will provide the union with reasonable advance notice of and an
      opportunity to be represented at the discussion. In the event that a mutually
      agreeable resolution is not achieved, approval of the conflicting telecommuting
      requests will be decided by FCC Entrance on Duty (EOD) date and, in the event
      of the same EOD date, by Service Computation Date. An employee whose
      request to telecommute is disapproved may file a grievance at Step 2 of the
      Negotiated Grievance Procedure. If the grievance is not resolved, it may be
      moved to expedited arbitration under Article 40 without the need for mutual
      consent of the Parties.



Section 5 - Official Duty Station, Duty Hours, Time and Attendance

A.    Participants in the Flexible Workplace Program shall be permitted as part of a
      flexiplace arrangement to work any AWS schedule in accordance with the
      procedures set forth in Article 42, "Alternate Work Schedules," of the Basic
      Negotiated Agreement.

B.    The official duty station of an employee participating in the flexible work program
      is the employee's Federal office.

C.    The Employer has the right to direct flexiplace employees to report to the official
      duty stations due to special circumstances, including, but not limited to, office
      assignments, meetings, and/or training classes. These should be planned to
      give the employee notice in time to travel to the official duty station during the
      regular commuting time. In this situation, time spent traveling will not be
      considered hours of work. When the employee is scheduled for a full day tour of
      duty at the flexiplace and receives notification to report to the official duty station
      too late to travel during normal commute time, travel time will be counted as
      hours of work.

D.    As a minimum level of accessibility, employees in the flexible work place program
      are expected to be at least as available to managers, co-workers, and customers
      by telephone, e-mail, voice mail, or other communications media during their
      scheduled daily tours of duty as when working at the official duty station.

E.    Overtime and compensatory time must be approved in advance by an authorized
      official.

F.    Policies and practices for requesting and using leave shall be in accordance with
      the Basic Negotiated Agreement.

G.    The Employer will make a good faith effort to reasonably facilitate a
      telecommuter's use of a telecommuting center.



Section 6 - Space, Equipment and Services

A.    The Employer will make a good faith effort to reasonably provide the necessary
      equipment, supplies, and services required for employees to participate in the
      Flexible Workplace Program. However, this does not preclude employees from
      providing their own compatible equipment consistent with FCC network
      requirements and the availability of technical support and services.

B.    Employees may not remove classified material from their official duty stations
      without prior approval from appropriate authorities.

C.    Flexiplace home sites must have adequate work space, lighting, residential
      telephone service, power, and adequate security.

D.    The Parties agree that the Employer has the right to inspect the home work site
      to ensure its suitability. Reasonable advance notice will be given (not less than
      two workdays in advance of the inspection). The employee can get a union
      representative to attend as a witness if the employee so requests . Another
      inspection may be made if there are changes to the home work site which
      necessitates another inspection.

E.    Employees must comply with all security measures and disclosure provisions,
      including pass word protection and data encryption so that the Privacy Act or
      other security standards are not compromised.

F.    Employees must protect all government records and data against unauthorized
      disclosure, access, mutilation, obliteration, and destruction.

G.    Employees must ensure that government provided equipment and property is
      used only for official purposes. Reasonable care should be used in operating all
      equipment. The servicing and maintenance of government owned equipment is
      the responsibility of the Employer.




Section 7 - Other Provisions

A.    If a flexible work place agreement is canceled or terminated, the Employer will
      make a reasonable effort to relocate the employee in work space and to provide
      equipment and furniture equivalent to what the employee had prior to
      participating in the flexible work place agreement. It will restore the employee to
      the same working conditions other similarly situated employees have who work in
      the office no later than ten calendar days after termination of the flexiplace
      arrangement.

B.    Employees participating in the Flexible Workplace Program will not be excused
      from work because workers at the official duty station are dismissed or not
      required to work due to an emergency if the emergency does not impact the work
      being performed at the alternative work site. If the emergency occurs at the
      flexiplace work site which impacts on the employee's ability to perform official
      duties, the employee will immediately notify the Employer. The Employer will
      direct the employee to another work site, grant administrative leave, or the
      employee will make leave arrangements; e.g., annual leave or LWOP.

C.    The Employer will not be responsible for operating costs, home maintenance, or
      any other incidental costs (e.g., utilities) associated with the use of the flexiplace
      work site. The employee does not relinquish any entitlement to reimbursement
      for appropriately authorized expenses incurred while conducting business for the
      Employer as provided for by law and regulations; e.g., long distance telephone
      calls, FAXs, copying.

D.    Employees who telecommute will be covered by applicable provisions of the
      Federal Employees Compensation Act.
E.    If the employee's request to telecommute is to accommodate a disability or
      illness, the employee may be required to provide a medical certification or other
      relevant information.


Section 8 – Provisions Applicable During Initial “Rollout” of the Telecommuting
Program

A.    Employees may apply for telecommuting at any time.

B.    Employees in a work unit who are telecommuting will have priority over those
      entering the work unit, and the tie-breaking provisions of Section 4,E do not
      apply.

C.    Employees in a work unit who have applications for telecommuting pending
      within their work unit will have priority over those entering the work unit, and the
      tie-breaking provisions of Section 4,E do not apply.

D     Applications will be processed in the order in which they are submitted to NTEU
      Chapter 209, except during the initial application period. Applications that cannot
      be approved will be retained by the supervisor and acted upon as circumstances
      permit.

E.    Employees currently telecommuting will receive no special preference in the
      application process (except employees who are telecommuting as an
      accommodation to a disability or Common Carrier Bureau employees in the New
      York area).

F.    Employees may use personally-owned computers to connect to the FCC’s
      computer network only to the extent that the Employer has determined it is able
      to provide necessary technical support and services for these personally-owned
      computers.
                                                                            Exhibit No. 1


REQUEST AND AGREEMENT TO PARTICIPATE
IN THE FCC FLEXIBLE WORKPLACE PROGRAM

TO:

THROUGH: (Name) Designated NTEU Official

SUBJECT: Request and Agreement to Participate in the Flexible Workplace Program

I wish to participate in the Flexible Workplace Program pursuant to Article 46 of the
Basic Negotiated Agreement between the FCC and NTEU. I have read and understand
the provisions of Article 46.

EMPLOYEE'S NAME:___________________________________________________
                          (First)         (Last)          (Middle Initial)
Position Title:_________________________________________________________

Grade, Series, and Pay Plan:_____________________________________________

NATURE OF REQUEST (Include all information necessary to evaluate the request, as
applicable.

1.    If your request is to accommodate a disability or illness, please attach medical
      certification and/or other relevant information, and indicate the estimated duration
      of the disability or illness.

2.    Indicate the days you wish to telecommute.

3.    Specify where you would like to work off site (e.g., home or at a telecommuting
      center).

4.    Describe the nature and content of the work you could perform.

5.    Identify any equipment or services you think you would need to successfully
      perform work at the alternative work site.
                   FLEXIBLE WORKPLACE AGREEMENT


The following constitutes an agreement between:

______________________________________________________________
(The FCC and the EMPLOYEE named above)

on the terms and condition for the employee's participation in the FCC Flexible
Workplace Program as provided in Article 46 of the Basic Negotiated Agreement
between the FCC and NTEU. Article 46 is hereby incorporated into this agreement by
this reference and by signing this agreement, the employee understands that the
provisions of Article 46 are part of this agreement.

1.    The bargaining unit employee who volunteers to participate in the Flexible
      Workplace Program must agree to provisions of Article 46 and the provisions of
      this agreement.

2.    The employee's official duty station is:_________________________________
      (include street, city, state, zip code and phone number).

      (All pay, leave, and travel will be based on the employee's official duty station.)

3.    The employee's alternate work site is:__________________________________

      ________________________________________________________________
      (include street, city, state, zip code and phone number).

4.    The employee, when telecommuting, agrees to report to the official duty station
      as required for training, conferences, mandatory meetings, and to receive
      assignments and review completed work. The employee may also be required to
      report to his or her official duty station for short duration to perform work which
      cannot otherwise be performed at the alternative work site.

5.    The employee's tour of duty will be: _________________________________
      (specify days, hours, and location at both the office and the alternative work site).

6.    The employee's timekeeper will have a copy of the employee's flexible work
      place schedule. The employee's time and attendance will be recorded as
      performing official duties at the official duty station.

7.    By signing this agreement, the employee agrees to follow established procedures
      for requesting and obtaining approval of leave. Failure to follow these
      procedures may result in the termination of this agreement.
8.    The employee will be in a pay status while working at the approved alternative
      work site.

9.    The employee's job performance will be appraised in accordance with the
      employee's performance plan.

10.   The employee agrees to perform only official duties while telecommuting.

11.   All government provided equipment is for official business only. Employees are
      prohibited from using such equipment for private purposes.

12.   The Standards of Conduct continue to apply to employees at their approved
      alternative work site.

13.   The employee will apply approved safeguards to protect government records
      from unauthorized disclosure or damage and will comply with the Privacy Act
      requirements set forth in the Privacy Act of 1974 (5 USC 552a).

14.   The employee is responsible for ensuring the safety and adequacy of the home
      work place and for ensuring applicable building and safety codes are met. This
      includes, but is not limited to, ensuring the home's electrical system is adequate
      for the use of government equipment, and safeguarding government equipment
      from children and pets. (Refer to the Checklist provided by the agency’s Safety
      and Health Manager.)

15.   Provided the employee is given at least two days advance notice, the employee
      agrees to permit periodic home inspections by the government during the
      employee's normal working hours to ensure proper maintenance of government
      owned property and work site conformance with safety standards and other
      specifications of this agreement. The employee has the right to have a union
      representative attend the inspection.

16.   The employee agrees that the government will not be responsible for operations,
      home maintenance, or any other incidental cost; e.g., utilities, associated with the
      use of the employee's residence if the residence is the approved alternative work
      site.

17.   Government employees suffering from work-related injuries and/or equipment or
      property damages at the alternate work site are covered to the extent provided
      by the Military Personnel and Civilian Employees Claims Act, the Federal Tort
      Claims Act, or the Federal Employees Compensation Act (workers’
      compensation).
18.   The employee understands that the employee is covered under the Federal
      Employee's Compensation Act if injured in the course of actually performing
      official duties at the official duty station or the approved alternative work site.

19.   The employee understands that this agreement may be terminated by the
      employee at any time.

20.   The employee also understands that the Employer may terminate the agreement
      for cause such as:

      (a)    Failure to meet the eligibility requirements set forth in Article 46 of the
             Basic Negotiated Agreement.

      (b)    Failure to adhere to the provisions of this agreement;



I AGREE TO THE TERMS AND PROVISIONS OF THIS AGREEMENT:


_____________________________________________________________________
Employee's Name, Job Title, Signature, and Date



THE EMPLOYER AGREES TO THE TERMS AND PROVISIONS OF THIS
AGREEMENT:


_____________________________________________________________________
Manager's Name, Title, Signature, and Date

NTEU has received a copy of this application prior to its submission to the employer:

____________________________________________Date:______________
(Designated Union Official)
                    FEDERAL COMMUNICATIONS COMMISSION
                            Office of Inspector General


Telecommuting Survey Questionnaire - Supervisors



The Federal Communications Commission (FCC) established its Flexible Workplace Program on
June 8, 2000. The FCC established the Program to increase productivity, improve employee
morale and job satisfaction, and reduce absenteeism.


The purpose of this questionnaire is to survey Commission managers and supervisors about their
employees’ participation and obtain input on the perceived benefits, complications, and
shortcomings the managers and supervisors have experienced or observed since the
Commission’s Flexible Workplace Program was established.


NAME: ________________________________________

TITLE: _________________________________________

BUREAU/OFFICE ______________________________________________________

DIVISION/BRANCH _____________________________________________________

1. I supervise __________ employees.

2. Number of employees for each occupation code and grade of employees supervised (e.g.,
   five (5) GS-0343-14s, three (3) GS-1120-13s, etc.).

         Number               Occ. Code/Grade         Number             Occ. Code/Grade

   ________________          ________________     ______________        _______________

   ________________          ________________     ______________        _______________

   ________________          ________________     ______________        _______________

   ________________          ________________     ______________        _______________
3. Of these, _________ employees with the following occupation codes and grades
   telecommute (e.g., five (5) GS-0343-14s, three (3) GS-1120-13s, etc.):

       Number                 Occ. Code/Grade         Number            Occ. Code/Grade

   ________________         ________________      ______________        _______________

   ________________         ________________      ______________        _______________


4. ________ of my employees are regular telecommuters and _______ of my employees are ad-
   hoc telecommuters.

5. Employees under my supervision telecommute (indicate number of employees for each
   selection below):

              ______ One (1) day a week.


              ______ Two (2) days a week.


              ______ Three (3) days a week.


              ______ Four (4) days a week.


              ______ Five (5) days a week.


6. _________ of my employees applied to telecommute, but were denied.

7. The denied employees were the following occupation codes and grades (e.g., five (5) GS-
   0343-14s, three (3) GS-1120-13s, etc.):

       Number                 Occ. Code/Grade         Number            Occ. Code/Grade

   ________________         ________________      ______________        _______________

   ________________         ________________      ______________        _______________

   ________________         ________________      ______________        _______________
8. Please state the specific reason for denying each employee’s telecommuting application.




9. Overall my telecommuting employees:
                                                                         YES     NO


       Are as productive as those who don’t telecommute.                 ____   ____


       Are more productive than non-telecommuters.                       ____   ____


       Are less productive than non-telecommuters.                       ____   ____


       Use the same amount of leave as before telecommuting.             ____   ____


       Use more leave than before telecommuting.                         ____   ____


       Use less leave than before telecommuting.                         ____   ____


       Charge credit or overtime hours while telecommuting.              ____   ____
      Require the same level of supervision/monitoring.             ____   ____


      Require significantly more supervision/monitoring.            ____   ____


      Require less supervision/monitoring.                          ____   ____


      Have appropriate time to interact with co-workers.            ____   ____


      Avoid being assigned their share of unexpected tasks.         ____   ____


      Are more difficult to evaluate.                               ____   ____



10. Describe how the Commission’s telecommuting program benefits employee performance
    under your supervision in terms of accomplishing your mission objectives.
11. Describe how the Commission’s telecommuting program complicates, and/or impairs
    employee performance under your supervision in terms of accomplishing your mission
    objectives.




12. From your perspective, the FCC’s telecommuting program could be improved by:
